                       ATTESTATION REPORT

Independent Report on Employee
Benefits, Withholdings, and
Contributions, and Supplemental
Semiannual Headcount Reporting
Submitted to the Office of Personnel
Management
  September 19, 2014




                          Report Number FT-AR-14-012
                                                                      HIGHLIGHTS
                                                                         September 19, 2014
                         Attestation Report - Independent Report on Employee Benefits,
                        Withholdings, and Contributions, and Supplemental Semiannual
                 Headcount Reporting Submitted to the Office of Personnel Management
                                                               Report Number FT-AR-14-012
BACKGROUND:
At the request of the U.S. Office of
Personnel Management (OPM) Office of            Also, employee aggregate base salaries
Inspector General, we performed                 reported to OPM did not always reflect
procedures agreed upon by the chief             the actual salaries paid. The OPM uses
financial officer and inspector general of      this data for financial management and
the OPM. This attestation engagement            actuarial purposes.
is an annual requirement of the U.S.
Office of Management and Budget.                In addition, four of 164 CFCs in the
                                                Postal Service's payroll system had
Our objectives were to help the OPM             different campaign addresses than
assess the reasonableness of U.S.               those provided by the OPM. Further,
Postal Service employee benefit                 employees’ campaign codes in the
withholdings, enrollment information,           payroll system did not match the OPM
and Postal Service benefit contributions,       campaign code associated with the
and to confirm the Combined Federal             employee's work location for 186 of
Campaign (CFC) program accounting               65,882 employees.
codes (managed by the OPM) and
payroll data match OPM records.                 We were not engaged in and did not
                                                perform an audit, the objective of which
WHAT THE OIG FOUND:                             would have been the expression of an
Although we identified no reportable            opinion on the withholdings and
issues with either retirement or health         contributions. Accordingly, we do not
benefits data, we did identify issues           express such an opinion.
related to life insurance, base salaries
reporting, and CFC data. Specifically,          WHAT THE OIG RECOMMENDED:
our review of 35 employees’ life                This report is provided for information
insurance elections found:                      only, and we offered no
                                                recommendations. Accordingly, no
 A basic life insurance premium was            management action is required.
    incorrectly calculated for one
    employee.                                   Link to review the entire report
 Life insurance elections could not be
    verified because Life Insurance
    Election Forms were not present in
    six employees’ Electronic Official
    Personnel Folders.
 Life insurance elections documented
    in the payroll system were incorrect
    for five employees.
September 19, 2014

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT

                           MAURA A. McNEARNEY
                           VICE PRESIDENT, CONTROLLER

                                     E-Signed by Mark Duda
                              VERIFY authenticity with eSign Desktop




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, and Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-14-012)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
14BM009FT000). This report is provided for information only and requires no
management action.

At the request of the OPM OIG, we performed the agreed-upon procedures in
accordance with generally accepted government auditing standards and attestation
standards established by the American Institute of Certified Public Accountants. We
performed the procedures solely to help the OPM assess the reasonableness of
employee withholdings and U.S. Postal Service contributions in the Report of
Withholdings and Contributions for Health Benefits, Life Insurance and Retirement for
three selected payroll periods. We also verified enrollment information in the
Supplemental Semiannual Headcount Report for September 2013 and March 2014.
Finally, we confirmed the Combined Federal Campaign program accounting codes and
payroll data with the OPM records for one payroll period.
We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John E. Cihota, deputy
assistant inspector general for Finance and Supply Management, or Lorie Nelson,
director, Finance, at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
    Julie S. Moore
September 19, 2014

MEMORANDUM FOR:            HONORABLE PATRICK E. MCFARLAND
                           INSPECTOR GENERAL
                           U.S. OFFICE OF PERSONNEL MANAGEMENT

                           DENNIS D. COLEMAN
                           CHIEF FINANCIAL OFFICER
                           U.S. OFFICE OF PERSONNEL MANAGEMENT

                                     E-Signed by Mark Duda
                              VERIFY authenticity with eSign Desktop




FROM:                      Mark W. Duda
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Attestation Report – Independent Report on Employee
                           Benefits, Withholdings, Contributions, and Supplemental
                           Semiannual Headcount Reporting Submitted to the Office of
                           Personnel Management (Report Number FT-AR-14-012)

This report presents the results of our attestation engagement of procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 14BM009FT000).

At the request of the OPM Office of Inspector General (OIG), we performed the agreed-
upon procedures in accordance with generally accepted government auditing standards
and attestation standards established by the American Institute of Certified Public
Accountants. We performed the procedures solely to help the OPM assess the
reasonableness of employee withholdings and U.S. Postal Service contributions in the
Report of Withholdings and Contributions for Health Benefits, Life Insurance and
Retirement for three selected payroll periods. We also verified enrollment information in
the Supplemental Semiannual Headcount Report for September 2013 and March 2014.
Finally, we confirmed the Combined Federal Campaign (CFC) program accounting
codes and payroll data with the OPM records for one payroll period.
We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions or need additional information, please contact John E. Cihota,
deputy assistant inspector general for Finance and Supply Management, or Lorie
Nelson, director, Finance, at 703-248-2100.

Attachment

cc: Michael R. Esser
    William W. Scott, Jr.
Attestation Report - Independent Report on Employee Benefits, Withholdings, and                                FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management

                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Basic Life Insurance Premium ......................................................................................... 2

Life Insurance Election Forms ......................................................................................... 2

Life Insurance Elections in Payroll System...................................................................... 3

Aggregate Base Salary ................................................................................................... 3

FERS Aggregate Base Salary Amounts .......................................................................... 4

Combined Federal Campaign Addresses........................................................................ 5

Combined Federal Campaign Codes .............................................................................. 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Unmatched Combined Federal Campaign Codes..................................... 11

Attachment A: Agreed Upon Procedures ...................................................................... 15
Attestation Report - Independent Report on Employee Benefits, Withholdings, and              FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management



Introduction

This report presents the results of our attestation engagement of the procedures agreed
upon by the inspector general and the chief financial officer of the U.S. Office of
Personnel Management (OPM) (Project Number 14BM009FT000). The report responds
to the OPM’s request for help assessing the reasonableness of employee withholdings
and U.S. Postal Service contributions reported in the Report of Withholdings and
Contributions for Health Benefits, Life Insurance and Retirement for the payroll periods
ended September 6, 2013, March 7, 2014, and May 2, 2014; the enrollment information
reported in the Supplemental Semiannual Headcount Report for September 2013 and
March 2014; and the Combined Federal Campaign (CFC) program information for the
payroll period ended March 7, 2014. See Appendix A for additional information about
this attestation engagement and Attachment A for a description of the procedures.

This attestation engagement is an annual requirement of the Office of Management and
Budget's Circular Number A-136, Financial Reporting Requirements, and Bulletin 14-02,
Audit Requirement for Federal Financial Statements. Additionally, the OPM manages
the CFC and ensures compliance with CFC regulations.

Conclusion

Although we were able to verify the employee withholdings, Postal Service
contributions, and enrollment information reported and transferred to the OPM for health
benefits and retirement, we did identify issues related to life insurance, semiannual base
salaries reporting, and CFC information. Specifically:

   A basic life insurance premium was incorrectly calculated for one of 35 employees.

   Life insurance elections for six of 35 employees could not be verified because Life
    Insurance Election Forms were not present in their Electronic Official Personnel
    Folders (eOPFs). 1

   Life insurance elections documented in the payroll system were incorrect for five of
    35 employees.

   Aggregate base salaries for employees under the Federal Employee Retirement
    System (FERS) reported to the OPM on the September 2013 and March 2014
    Supplemental Semiannual Headcount Report did not always reflect the actual
    salaries paid to those employees.


1
 The eOPF documents an individual’s employment history. Generally, when a document is scanned into eOPF, the
scanned image becomes the official record of the document.
                                                       1
Attestation Report - Independent Report on Employee Benefits, Withholdings, and                           FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


   The Postal Service's payroll system had a different campaign address than those
    provided by the OPM in four of 164 campaigns.

   Employees’ campaign codes in the Postal Service's payroll system did not match the
    OPM campaign code associated with the employee's work location for 186 of 65,882
    employees.

This report is provided for information only and we offer no recommendations.
Accordingly, no management action is required.

Basic Life Insurance Premium

Out of 35 employees’ basic life insurance premium calculations reviewed, one was
incorrectly calculated. 2 Specifically, the Postal Service calculated the premium based on
higher level pay. 3 However, the employee was paid at the base rate on the last day of
the pay period. Postal Service policy states basic life insurance premiums should be
calculated using higher level pay only when the employee received higher level pay on
the last day of the pay period. 4 This occurred because the payroll system’s Last Day
(LD) indicator for the higher level pay was set to “Y” (Yes). The system calculates basic
life insurance premiums based on the higher level salary when the LD indicator in week
2 of the pay period is set to “Y.” As a result, the Postal Service overpaid the life
insurance premium contribution by 45 cents, and the employee received increased
insurance coverage during the pay period reviewed. The OPM requires we report any
incorrectly calculated basic life insurance premiums.

The Postal Service was aware of the issue and stated the incorrect calculation was the
result of an error in the Time and Attendance Collection System application.
Management corrected the error during the week of August 25, 2014. We did not
validate the correction.

Life Insurance Election Forms

Life insurance elections for six of 35 employees could not be verified because Life
Insurance Election Forms were not present in their eOPFs. Life Insurance Election
Forms are the original source documents that initiate withholdings, contributions,
changes, and cancellations in payroll records. The OPM requires the Postal Service to
maintain life insurance records as permanent records. The Postal Service Human
Resources Shared Service Center (HRSSC) 5 was also unable to locate the forms.



2
  Procedure 2.h.
3
  Employees receive higher level pay when they are temporarily assigned to perform the duties or to assume the
responsibilities of a ranked or evaluated position that is at a higher level than that of the employee's official position.
4
  Employee and Labor Relations Manual (ELM), Chapter 5, Employee Benefits, dated September 2013.
5
  The HRSSC is the Postal Service national operational and processing center for personnel actions including
benefits administration.


                                                              2
Attestation Report - Independent Report on Employee Benefits, Withholdings, and                FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management

However, we were able to locate Postal Service (PS) Form 50 Notification of Personnel
Action 6 used by the Postal Service for processing the elections.

Four of the six employees did not submit Life Insurance Election Forms within 31 days
after becoming eligible for optional life insurance. The Postal Service did not complete
forms declining the optional life insurance for them, as required by Postal Service
policy. 7 Therefore, no Life Insurance Election Forms exist for these four employees.
HRSSC personnel stated that the procedures have changed and they no longer are
required to complete Life Insurance Election Forms for employees who do not submit
them. However, neither the ELM nor the standard operating procedures have been
updated to reflect this change.

HRSSC did not explain why the remaining two employees’ Life Insurance Election
Forms were missing. However, as a result of our review, HRSSC personnel completed
a “Federal Employees’ Group Life Insurance (FEGLI): 8 Missing Document – Note to
File” to serve as the official record of these two employees’ insurance elections.

Life Insurance Elections in Payroll System

The life insurance elections documented in the payroll system during the period
reviewed were incorrect for five of 35 employees. 9 The payroll system records indicated
that all five employees had elected basic coverage plus option A and one multiple each
of options B and C (code J1). The original PS Forms 50 were processed with the
election code J1. However, all five employees should have been covered by basic life
insurance only (code C0).The election of code J1 was an error by the employee who
processed the PS Forms 50. The Postal Service corrected the error in the next pay
period, when new PS Forms 50 were issued to retroactively change the life insurance
code to the appropriate election.

Because the employees received optional life insurance in error during the pay period
we reviewed, they were charged a total of $35.22 for life insurance benefits they did not
elect. The Postal Service refunded these premiums on August 29, 2014.

Aggregate Base Salary

FERS 10 aggregate base salary amounts reported on OPM Form 1523, Supplemental
Semiannual Headcount Report, for September 2013 and March 2014 did not accurately
reflect the actual salaries paid to those employees. The Postal Service calculates the
salaries reported on OPM Form 1523 by dividing the dollar amount of the employee

6
  The PS Form 50 is the Postal Service’s version of the federal government’s Standard Form 50, which is used to
document employment events.
7
  ELM Chapter 5, 535.122.
8
  FEGLI is a life insurance program for Federal and Postal Service employees and annuitants administered by the
OPM.
9
  Procedure Number 2.i.
10
   Includes Regular and Law Enforcement Employees under either FERS, FERS-Revised Annuity Employees (RAE)
or FERS-Further Revised Annuity Employees (FRAE).


                                                       3
Attestation Report - Independent Report on Employee Benefits, Withholdings, and                FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


contributions by the employee contribution retirement rate for FERS Regular and FERS
Law Enforcement employees, which are 0.8 and 1.3 percent, respectively. This method
does not accurately reflect actual salaries paid because it ignores the increased
employee contribution rates in effect for FERS-RAE and FERS-FRAE employees. 11 See
Table 1 for the contribution rates for the new retirement plans that were not used in the
calculation.

                 Table 1. FERS Employee Withholding Contribution Rates

                           Retirement Plan      Contribution Rates
                      FERS-RAE-Regular                 3.1%
                      FERS-RAE-Law Enforcement         3.6%
                      FERS-FRAE-Regular                4.4%
                      FERS-FRAE-Law Enforcement        4.9%
                    Source: OPM Benefit Administration Letters 12-104 and 14-102.

By calculating the aggregate base salary using the lower FERS contribution rates, the
Postal Service over-reported aggregate base salaries on the semiannual report to the
OPM.

We compared the actual aggregate base salary amounts extracted from the Postal
Service payroll system to the amounts reported to the OPM on Form 1523. 12 We
determined three of the four FERS aggregate base salary amounts reported in
September 2013 and March 2014 differed from the actual amounts by more than the
2 percent tolerance allowed by the OPM. See Table 2 for the differences between the
reported and actual base salary amounts.

                      Table 2. Difference Between Reported and Actual
                           FERS Aggregate Base Salary Amounts
                                                        September 2013 March 2014
                          FERS Group
                                                           Variance     Variance
               FERS-Regular Employees                       1.44%        4.63%
               FERS-Law Enforcement
                                                               4.57%                 6.65%
               Employees
              Source: OIG analysis of data from Postal Service payroll systems and OPM Form 1523.

The OPM uses the information reported on the Supplemental Semiannual Headcount
Report for financial management and actuarial determinations. Over-reported aggregate
base salaries could cause the OPM to make inaccurate determinations related to the
Postal Service’s retirement liability. Postal Service management stated they plan to
revise the methodology to calculate aggregate base salary amounts and that update will
be reflected on the next OPM Form 1523 due September 2014. We did not validate the

11
   The FERS-RAE employee contribution rates apply to employees hired on or after January 1, 2013, and before
January 1, 2014. The FERS-FRAE contribution rates apply to employees hired on or after January 1, 2014.
12
   Procedure 5.c.


                                                       4
Attestation Report - Independent Report on Employee Benefits, Withholdings, and                    FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


accuracy of the revised methodology. We plan to review as part of our FY 2015
attestation engagement work.

Combined Federal Campaign Addresses

Four of 164 campaigns in the Postal Service's payroll system had different campaign
addresses than those provided by the OPM. 13 See Table 3 for the list of address
differences that we identified and provided to Postal Service management.

                Table 3. Unmatched Combined Federal Campaign Addresses

                                                                                                   Differences




                                                                                                           Address
                Name/Address per Postal




                                                                                                    Name
      Code                                                  Name/Address per OPM




                                                                                                                     Zip
                       Service

               CFC of N. Central KY - S. IN - Ft. Knox   CFC of N. Central KY - S. IN - Ft. Knox
               c/o Metro United Way                      c/o Metro United Way
      0355     334 E. Broadway                           334 E. Broadway                                   X         X
               Louisville, KY 40202-1739                 P.O. Box 4488
                                                         Louisville, KY 40204-0488
               Southwest North Dakota CFC                Southwestern North Dakota CFC
               505 N 4th St                              PO BOX 2111
      0670     PO BOX 2111                               Bismarck, ND 58502
                                                                                                                     X
               Bismarck, ND 58501
               Fort Sill & Lawton CFC                    Fort Sill & Lawton CFC
               c/o United Way of Lawton-Fort Sill        c/o United Way of Lawton-Fort Sill
      0709     PO Box 66                                 1116 SW A Ave
                                                                                                           X
               Lawton, OK 73502                          Lawton, OK 73502
               Coastal Bend Area CFC                     Coastal Bend Area CFC
               C/O Community Health Charities Of         C/O Community Health Charities Of
      0838     Texas                                     Texas                                                       X
               16414 San Pedro Ave, Suite 940            16414 San Pedro Ave #940
               San Antonio, TX 78230                     San Antonio, TX 78232

        4                                           TOTALS                                          0      2         3
     Source: Postal Service payroll systems and list of CFC contacts provided by the OPM.

Additionally, we identified one campaign in the Postal Service payroll system that was
not present in the OPM records. No Postal Service employees contributed to this
campaign during the period reviewed.

The Postal Service uses electronic funds transfer (EFT) to transmit employee
contributions to the campaigns; therefore, bank routing numbers and account numbers
are the primary data elements that ensure a successful transaction. However, if an EFT
is unsuccessful, the Postal Service issues and mails a check to the campaign.
Accordingly, the campaign names and addresses in the Postal Service's payroll system
exist as a secondary control. Before mailing the check, the Postal Service verifies the


13
     Procedure Number 8.b.


                                                           5
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


name and address in its payroll system with the most recent OPM monthly update to
ensure the mailing address is current. 14

Because of our review, the Postal Service informed us that it had reviewed the
differences and would delete the inactive campaign and correct the address differences
to match the OPM records.

Combined Federal Campaign Codes

CFC codes in the Postal Service's payroll system for 186 of 65,882 employees did not
match the OPM campaign code associated with the employee's work location. 15 These
included three employees at two work locations who contributed to campaigns for which
there were no official campaign codes. 16 The differences could be attributed to
inaccurate OPM information or Postal Service coding errors. We did not validate the
accuracy of the OPM's campaign data or other potential causes of the differences
between the Postal Service's payroll data and the OPM's campaign data because it was
beyond the scope of this attestation engagement. Postal Service management is
working to resolve these differences. See Appendix B for the list of unmatched CFC
codes we identified and provided to Postal Service management.

We were not engaged in, and did not perform, an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement; enrollment information; and the CFC program.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, we might have found other matters that we would have reported.

This report is intended solely for the use of the inspector general and the chief financial
officer of the OPM and should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their
purposes. This report is provided for information only and requires no management
action. We offered no recommendations.




14
   EFT is generally used; it is rare that a check is issued.
15
   Procedure Number 9.b.
16
   Sylva, NC, and Pleasanton, TX.


                                                               6
Attestation Report - Independent Report on Employee Benefits, Withholdings, and               FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


                               Appendix A: Additional Information

Background

The Postal Service Information Technology and Accounting Services (IT/ASC) in
Eagan, MN, is responsible for calculating, disbursing, and reporting employee
withholdings and Postal Service contributions for health benefits, life insurance, and
retirement. As of March 7, 2014, the Postal Service employed more than 618,000
people (about 471,000 with benefits).

During each of the three payroll periods reviewed, 17 the Postal Service withheld an
average of more than $79 million and contributed over $282 million toward benefits. The
Postal Service transmitted these funds to the OPM via the Retirement and Insurance
Transfer System (RITS) and prepared the Report of Withholdings and Contributions for
Health Benefits, Life Insurance and Retirement for each payroll period detailing the
amounts associated with each benefit category. Additionally, the Postal Service
submitted to the OPM the Supplemental Semiannual Headcount Report detailing the
number of employees associated with each benefit category for September 2013 and
March 2014.

The CFC is the world's largest annual workplace charity campaign. Postal Service
employees make contributions through payroll deductions to support eligible non-profit
organizations that provide health and human services throughout the world. The IT/ASC
is responsible for payroll coding and disbursing the contributions to 164 campaigns.

The OPM correlates campaigns with work locations (cities, counties, and states). The
Postal Service has about 32,000 locations, about 1,000 of which are in work locations
with no official campaign. During the payroll period reviewed, about 66,000 Postal
Service employees contributed $723,000 to the campaigns through payroll deductions.
Contributions are submitted to the campaigns via EFT. If the EFT is unsuccessful, a
check is issued and mailed to the campaign.

Objectives, Scope, and Methodology

Our objectives were to:

    Help the OPM assess the reasonableness of employee benefit withholdings and
     Postal Service benefit contributions in the Report of Withholdings and Contributions
     for Health Benefits, Life Insurance and Retirement, as well as enrollment information
     in the Supplemental Semiannual Headcount Report.

    Confirm CFC program accounting codes and payroll data with OPM records.


17
  These periods covered 56,305 employees who declined health benefits and 1,431 employees who declined life
insurance coverage.


                                                      7
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


To accomplish our objectives, we applied the agreed-upon procedures to the payroll
periods ending September 6, 2013, and March 7, 2014, coinciding with the
Supplemental Semiannual Headcount Report for September 2013 and March 2014,
respectively. We randomly selected another payroll period, ending May 2, 2014, for
additional testing. We limited our CFC testing to one payroll period ending
March 7, 2014.

We confirmed RITS data by verifying payroll source documents. We reviewed personnel
documents for 55 employees to verify salaries, retirement, and the election or non-
election of health benefits and life insurance. Our sample included the records of five
employees covered as FERS-RAE and five covered as FERS-FRAE. For all employees,
we independently calculated employee withholdings, Postal Service contributions, and
enrollment information for health benefits, life insurance, and retirement. We compared
the results to actual employee withholdings and Postal Service contributions submitted
to the OPM to determine whether differences existed. For the CFC program, we
compared work locations, accounting codes, and payroll deductions to the campaigns
approved by the OPM to identify differences.

We conducted this engagement from April through September 2014 in accordance with
the American Institute of Certified Public Accountants attestation standards and
generally accepted government auditing standards. The sufficiency of the agreed-upon
procedures is solely the responsibility of the inspector general and the chief financial
officer of the OPM. Consequently we make no representation regarding the sufficiency
of the agreed-upon procedures either for the purpose for which this report has been
requested or any other purpose. We discussed our observations and conclusions with
management officials and included their comments where appropriate.

We relied on computer-generated data from the Postal Service's payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the computer-
generated data. We determined that the data were sufficiently reliable for the purposes
of this report.




                                                    8
Attestation Report - Independent Report on Employee Benefits, Withholdings, and    FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


Prior Audit Coverage

                                                                                   Monetary
                                                                        Final       Impact
                                                   Report              Report         (in
                Report Title                       Number               Date       millions)
    Independent Report of Employee              FT-AR-14-002         11/08/2013   None
    Benefits, Withholdings,
    Contributions, and Supplemental
    Semiannual Headcount Reporting
    Submitted to the Office of
    Personnel Management
    Report Results: We found a difference between the life insurance election
    information in payroll records and the Life Insurance Election form for one of the
    25 employees reviewed. We identified one of 185 CFCs in the Postal Service’s
    payroll system that had a different campaign address than the one provided by
    the OPM. We also identified 141 of 75,157 employees whose campaign codes in
    the Postal Service’s payroll system did not match the OPM’s campaign codes
    associated with the employee’s work location. This included 14 employees at
    seven work locations who contributed to campaigns for which there were no
    official campaign codes. We validated that the Postal Service and its employees
    paid the correct withholdings and contributions. Also, management corrected the
    campaign address and the inactive campaign deductions for three employees
    and is reviewing campaign codes. Therefore, the information provided to the
    OPM was reasonable. We did not make any recommendations.

    Independent Report of Employee         FT-AR-12-013 09/25/2012 None
    Benefits, Withholdings,
    Contributions, and Supplemental
    Semiannual Headcount Reporting
    Submitted to the Office of
    Personnel Management
    Report Results: We identified differences between the life insurance election
    information in payroll records and the Life Insurance Election form for two of the
    25 employees whose information we reviewed. We identified 32 of 223 CFC
    entries in the Postal Service's payroll system that had different campaign names
    and addresses than those the OPM provided. We also identified 81 of 85,824
    employees whose campaign codes in the Postal Service's payroll system did not
    match the OPM campaign codes associated with the employee's work location.
    This included 13 employees at nine work locations who contributed to campaigns
    for which there were no official campaign codes. We did not make any
    recommendations.




                                                    9
Attestation Report - Independent Report on Employee Benefits, Withholdings, and    FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management


                                                                                   Monetary
                                                                        Final       Impact
                                                   Report              Report         (in
                Report Title                       Number               Date       millions)
    Independent Report on Employee              FT-AR-11-012         09/29/2011   None
    Benefits, Withholdings,
    Contributions, and Supplemental
    Semiannual Headcount Reporting
    Submitted to the Office of
    Personnel Management
    Report Results: We identified differences between the health benefit election
    information in payroll records and the Health Benefit Election Form for one of the
    10 employees whose information we reviewed; and life insurance election
    information in payroll records and the Life Insurance Election form for one of the
    25 employees whose information we reviewed. We identified 58 of 209 CFC
    entries in the Postal Service’s payroll system that had different campaign names
    or addresses than those the OPM provided. We identified 587 of 100,613
    employees whose campaign codes in the Postal Service’s payroll system did not
    match the OPM campaign code associated with the employee’s work location.
    This included four employees at work locations who contributed to campaigns for
    which there were no official campaign codes. We did not make any
    recommendations.




                                                   10
Attestation Report - Independent Report on Employee Benefits, Withholdings, and          FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management



             Appendix B: Unmatched Combined Federal Campaign Codes

   Duty                                                               CFC         CFC
 Station                                                              Code        Code     Number of
                     City                  County           State
 Finance                                                               per         per     Employees
 Number                                                               USPS        OPM
             CATHEDRAL
 051392                              RIVERSIDE               CA       0096        0105          11
             CITY
 051662      COACHELLA               RIVERSIDE               CA       0096        0105          6
             DESERT HOT
 052160                              RIVERSIDE               CA       0096        0105          18
             SPRINGS
             DESERT HOT
 052160                              RIVERSIDE               CA       0100        0105          2
             SPRINGS
                                     SAN
 052340      EARP                                            CA       0096        0105          1
                                     BERNARDINO
 053678      INDIO                   RIVERSIDE               CA       0096        0105          20
 054194      LA QUINTA               RIVERSIDE               CA       0096        0105          8
             MORONGO                 SAN
 055166                                                      CA       0096        0105          1
             VALLEY                  BERNARDINO
 055790      PALM DESERT             RIVERSIDE               CA       0096        0105          9
 055796      PALM SPRINGS            RIVERSIDE               CA       0096        0105          9
 056060      PIONEER                 AMADOR                  CA       0095        0106          1
 057794      THERMAL                 RIVERSIDE               CA       0096        0105          3
             THOUSAND
 057818                              RIVERSIDE               CA       0096        0105          2
             PALMS
             TWENTYNINE              SAN
 057998                                                      CA       0096        0105          2
             PALMS                   BERNARDINO
                                     SAN
 058682      YUCCA VALLEY                                    CA       0096        0105          2
                                     BERNARDINO
             WEST
 083351                              HARTFORD                CT       0162        0432          1
             HARTFORD
 083570      JEWETT CITY             NEW LONDON              CT       0164        0432          1
 084148      MERIDEN                 NEW HAVEN               CT       0164        0432          1
 084720      HAMDEN                  NEW HAVEN               CT       0164        0432          1
 108204      COLUMBIA                ALLEGANY                MD       0990        0405          1
 123146      FAIRMOUNT               GORDON                  GA       0211        0805          1
 124048      HARTWELL                HART                    GA       0870        0211          5
 149100      WAIALUA                 HONOLULU                HI       0005        0225          7
 167417      SPRINGFIELD             SANGAMON                IL       0249        0257          1
 172657      EVANSVILLE              VANDERBURGH             IN       0164        0355          1
 173170      GARY                    LAKE                    IN       0283        0249          1
 182511      DONAHUE                 SCOTT                   IA       0164        0259          1
 200928      BRANDENBURG             MEADE                   KY       0164        0355          1
 204786      LOUISVILLE              JEFFERSON               KY       0528        0355          9
 224395      LEWISTON                ANDROSCOGGIN            ME       0571        0391          1
 229120      WATERVILLE              KENNEBEC                ME       0571        0391          2




                                                   11
Attestation Report - Independent Report on Employee Benefits, Withholdings, and          FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management

   Duty                                                               CFC         CFC
 Station                                                              Code        Code     Number of
                     City                  County           State
 Finance                                                               per         per     Employees
 Number                                                               USPS        OPM
             CATHEDRAL
 051392                              RIVERSIDE               CA       0096        0105          11
             CITY
 051662      COACHELLA               RIVERSIDE               CA       0096        0105          6
             DESERT HOT
 052160                              RIVERSIDE               CA       0096        0105          18
             SPRINGS
             DESERT HOT
 052160                              RIVERSIDE               CA       0100        0105          2
             SPRINGS
                                     SAN
 052340      EARP                                            CA       0096        0105          1
                                     BERNARDINO
 053678      INDIO                   RIVERSIDE               CA       0096        0105          20
 054194      LA QUINTA               RIVERSIDE               CA       0096        0105          8
             MORONGO                 SAN
 055166                                                      CA       0096        0105          1
             VALLEY                  BERNARDINO
 055790      PALM DESERT             RIVERSIDE               CA       0096        0105          9
 055796      PALM SPRINGS            RIVERSIDE               CA       0096        0105          9
 056060      PIONEER                 AMADOR                  CA       0095        0106          1
 057794      THERMAL                 RIVERSIDE               CA       0096        0105          3
             THOUSAND
 057818                              RIVERSIDE               CA       0096        0105          2
             PALMS
             TWENTYNINE              SAN
 057998                                                      CA       0096        0105          2
             PALMS                   BERNARDINO
                                     SAN
 058682      YUCCA VALLEY                                    CA       0096        0105          2
                                     BERNARDINO
             WEST
 083351                              HARTFORD                CT       0162        0432          1
             HARTFORD
 083570      JEWETT CITY             NEW LONDON              CT       0164        0432          1
                                     PRINCE
 237812      RIVERDALE                                       MD       0405        0990          1
                                     GEORGES
             GREAT
 243026                              BERKSHIRE               MA       0005        0432          3
             BARRINGTON
 244845      MONTEREY                BERKSHIRE               MA       0005        0432          1
 248058      TAUNTON                 BRISTOL                 MA       0589        0427          1
 252402      DEARBORN                WAYNE                   MI       0164        0452          2
 252496      DETROIT                 WAYNE                   MI       0164        0452          1
 252496      DETROIT                 WAYNE                   MI       0432        0452          1
 252757      DETROIT                 WAYNE                   MI       0164        0452          1
 258120      ROCKWOOD                WAYNE                   MI       0164        0452          2
 270924      BROOKHAVEN              LINCOLN                 MS       0811        0503          1
 310960      BOULDER CITY            CLARK                   NV       0005        0560          1
 314891      LAS VEGAS               CLARK                   NV       0005        0560          1
             EAST
 337487                              BERGEN                   NJ      0005        0589          1
             RUTHERFORD
 350061      ALBANY                  ALBANY                  NY       0638        0571          5
 350063      ALBANY                  ALBANY                  NY       0638        0571          1
 351140      CAMILLUS                ONONDAGA                NY       0634        0638          1


                                                   12
Attestation Report - Independent Report on Employee Benefits, Withholdings, and          FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management

   Duty                                                               CFC         CFC
 Station                                                              Code        Code     Number of
                     City                  County           State
 Finance                                                               per         per     Employees
 Number                                                               USPS        OPM
             CATHEDRAL
 051392                              RIVERSIDE               CA       0096        0105          11
             CITY
 051662      COACHELLA               RIVERSIDE               CA       0096        0105          6
             DESERT HOT
 052160                              RIVERSIDE               CA       0096        0105          18
             SPRINGS
             DESERT HOT
 052160                              RIVERSIDE               CA       0100        0105          2
             SPRINGS
                                     SAN
 052340      EARP                                            CA       0096        0105          1
                                     BERNARDINO
 053678      INDIO                   RIVERSIDE               CA       0096        0105          20
 054194      LA QUINTA               RIVERSIDE               CA       0096        0105          8
             MORONGO                 SAN
 055166                                                      CA       0096        0105          1
             VALLEY                  BERNARDINO
 055790      PALM DESERT             RIVERSIDE               CA       0096        0105          9
 055796      PALM SPRINGS            RIVERSIDE               CA       0096        0105          9
 056060      PIONEER                 AMADOR                  CA       0095        0106          1
 057794      THERMAL                 RIVERSIDE               CA       0096        0105          3
             THOUSAND
 057818                              RIVERSIDE               CA       0096        0105          2
             PALMS
             TWENTYNINE              SAN
 057998                                                      CA       0096        0105          2
             PALMS                   BERNARDINO
                                     SAN
 058682      YUCCA VALLEY                                    CA       0096        0105          2
                                     BERNARDINO
             WEST
 083351                              HARTFORD                CT       0162        0432          1
             HARTFORD
 083570      JEWETT CITY             NEW LONDON              CT       0164        0432          1
 352789      INWOOD                  NASSAU                  NY       0626        0642          4
 355787      NEW ROCHELLE            WESTCHESTER             NY       0644        0639          2
 356975      RED HOOK                DUTCHESS                NY       0644        0639          1
 359096      WHITE PLAINS            WESTCHESTER             NY       0644        0639          1
 361728      CONWAY                  NORTHAMPTON             NC       0897        0655          1
 365560      NEWTON GROVE            SAMPSON                 NC       0164        0656          1
 365648      OAK CITY                MARTIN                  NC       0870        0655          1
 366128      PITTSBORO               CHATHAM                 NC       0211        0655          1
 367664      SYLVA                   JACKSON                 NC       0650        None          1
 381134      BUCYRUS                 CRAWFORD                OH       0684        0689          1
 382128      DEFIANCE                DEFIANCE                OH       0693        0684          1
 410140      ALLISON PARK            ALLEGHENY               PA       0005        0754          3
 411180      CARNEGIE                ALLEGHENY               PA       0005        0754          1
 412408      ELIZABETH               ALLEGHENY               PA       0005        0754          1
 413328      GREENOCK                ALLEGHENY               PA       0005        0754          1
             NATRONA
 415780                              ALLEGHENY               PA       0005        0754          2
             HEIGHTS
 416639      MONROEVILLE             ALLEGHENY               PA       0005        0754          2
 416647      PITTSBURGH              ALLEGHENY               PA       0005        0754          2


                                                   13
Attestation Report - Independent Report on Employee Benefits, Withholdings, and            FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management

   Duty                                                               CFC         CFC
 Station                                                              Code        Code       Number of
                               City        County           State
 Finance                                                               per         per       Employees
 Number                                                               USPS        OPM
                   CATHEDRAL
 051392                               RIVERSIDE              CA       0096        0105            11
                   CITY
 051662            COACHELLA          RIVERSIDE              CA       0096        0105            6
                   DESERT HOT
 052160                               RIVERSIDE              CA       0096        0105            18
                   SPRINGS
                   DESERT HOT
 052160                               RIVERSIDE              CA       0100        0105            2
                   SPRINGS
                                      SAN
 052340            EARP                                      CA       0096        0105            1
                                      BERNARDINO
 053678            INDIO              RIVERSIDE              CA       0096        0105            20
 054194            LA QUINTA          RIVERSIDE              CA       0096        0105            8
                   MORONGO            SAN
 055166                                                      CA       0096        0105            1
                   VALLEY             BERNARDINO
 055790            PALM DESERT        RIVERSIDE              CA       0096        0105            9
 055796            PALM SPRINGS       RIVERSIDE              CA       0096        0105            9
 056060            PIONEER            AMADOR                 CA       0095        0106            1
 057794            THERMAL            RIVERSIDE              CA       0096        0105            3
                   THOUSAND
 057818                               RIVERSIDE              CA       0096        0105            2
                   PALMS
                   TWENTYNINE         SAN
 057998                                                      CA       0096        0105            2
                   PALMS              BERNARDINO
                                      SAN
 058682            YUCCA VALLEY                              CA       0096        0105            2
                                      BERNARDINO
                   WEST
 083351                               HARTFORD               CT       0162        0432            1
                   HARTFORD
 083570            JEWETT CITY        NEW LONDON             CT       0164        0432            1
 438682            WARWICK            KENT                   RI       0005        0770            1
                                      AMERICAN
 445000            PAGO PAGO                                 AS 18    0225        0990            1
                                      SAMOA
 476528            ORLINDA            ROBERTSON              TN       0870        0811            1
 487125            PLEASANTON         ATASCOSA               TX       0838        None            2
                                                                                   Total         186
Source: Postal Service payroll systems and Duty Station to CFC crosswalk provided by the OPM.




18
     A territory of the U.S.


                                                   14
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management



                          Attachment A: Agreed Upon Procedures




                                                   15
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   16
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   17
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   18
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   19
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   20
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   21
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   22
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   23
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   24
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   25
Attestation Report - Independent Report on Employee Benefits, Withholdings, and   FT-AR-14-012
 Contributions, and Supplemental Semiannual Headcount Reporting
 Submitted to the Office of Personnel Management




                                                   26
